f

. 2311 Douglas Street
Omaha. Nebraska 68102-1214

•COCKLE

v^^^^Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact @cock I elega I bri efs .co m
Web Site
www .cockl elega I bri efs .com

No. 21MARTEZ L. SMITH.
Petitioner,
v.
UNITED STATES OF AMERICA
AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 30th day Of July, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI. 1 copy of the MOTION
FOR LEAVE TO FILE A SUPPLEMENTAL APPENDIX UNDER SEAL AND I copy of the
SUPPLEMENTAL
APPENDIX FILED UNDER SEAL in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
J. STEVEN BECKETT
AUDREY C. THOMPSON
BECKETT LAW OFFICE, P.C.
508 S. Broadway Avenue
Urbana, IL61801 •

JOSEPH R. PALMORE
Counsel of Record
MORRISON & FOERSTER LLP
2100 L Street, N.W.
Washington, DC 20037
(202) 887-6940
JPalmore@mofo.com'
LENA H. HUGHES
MORRISON & FOERSTER LLP
250 West 55th Street
New York, NY 100) 9
Counsel for Petitioner

Subscribed and sworn to before me this 30th day of July, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-Stati of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5.2023

Notary Public

Affiant

40998

Service List
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
Email: Sup re me CtEriefs@usdoi. gov
(202) 514-2217

